No. 21-145
IN THE

Supreme Court of the United States
GORDON COLLEGE, ET AL.,
Petitioners,
v.
MARGARET DEWEESE-BOYD,
Respondent.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief of the Jewish Coalition for Religious Liberty and Agudath Israel of
America as Amici Curiae in Support of Petitioners contains 2,783 words and complies
with the word limitation established by Rule 33.1(g)(x) of the Rules of this Court.
Dated: September 2, 2021

/s/ Blaine H. Evanson
Blaine H. Evanson

